CERTIFICATE OF COMPLIANCE
No. 19-910
K.G.S., INDIVIDUALLY AND AS GUARDIAN AND NEXT FRIEND OF BABY DOE, A MINOR
CHILD
Petitioner,
v.
Facebook, Inc.,
Respondent.

As required by Supreme Court Rule 33.1(h), I certify that the Petition Reply
in the above captioned case contains 2,951 words, excluding the parts of the
Petition that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on April 9, 2020.

/s Ruthanne M. Deutsch
Ruthanne M. Deutsch

